No. 20-6643

In the

Supreme Court of the United States
ADRIAN MCCRAY,
Petitioner,
v.
SCOTT LEWIS, WILLIAM BUTLER, LEROY
CARTLEDGE, and BRIAN STERLING,
Respondents,

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the Respondents’
Brief in Opposition was prepared using Century 12-point typeface and contains 3410
words in total. This certificate was prepared in reliance on the word count function
of the word processing system used to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted,

January 19, 2021
Greenville, South Carolina

s/ Charles F. Turner, Jr.
Charles F. Turner, Jr. (Fed ID# 05849)
Willson Jones Carter & Baxley, P.A.
325 Rocky Slope Road
Suite 201
Greenville, South Carolina 29607
cfturner@wjcblaw.com
(864) 672-3711
Counsel for Respondents

